No. 194366

the supreme Court of the Mititeb gptate5
SHIYANG HUANG, PETITIONER
V.

VALESKA SCHULTZ, MELANIE WAUGH, ROSALIND STALEY,
INDIVIDUALLY AND ON BEHALF OF ALL OTHERS SIMILARLY
SITUATED, ET AL.,

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

SECOND SUPPLEMENTAL BRIEF FOR PETITIONER

SHIYANG HUANG
Pro Per
2800 SW Engler Ct.
Topeka, KS 66614
(314) 669-1858
defectivesettlement@gmail.com

RECEIVED
JUL 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT U
.S.

•

SECOND SUPPLEMENTAL BRIEF FOR PETITIONER
Petitioner Shiyang Huang respectfully submits this second
supplemental brief in light of the Second Circuit's reversal in
Berni v. Barilla S.p.A., —F.3d—, No. 19-1921 (2d Cir. Jul. 8,
2020) (Cabranes, J.). A slip opinion copy is attached to this brief.
In May 2020, Shiyang Huang filed a petition for a writ of
certiorari to review the Eighth Circuit's opinion that the class
action was maintainable under Article III for Huang to receive
prospective relief under Federal Rules of Civil Procedure 23.

•

In Berni, the Second Circuit vacated a Rule 23(b)(2)' class
certification by former pasta buyers to certify a settlementclass for prospective relief on future practices. Berni, slip. op.,
at 6-7. The Second Circuit rejected such a class certification
because "a class may not be certified under Rule 23(b)(2) if any
class member's injury is not remediable by the injunctive or
declaratory relief sought." Id. at 4 (emphasis original). The
Second Circuit recognized recurring attempts for "past
purchasers" to purportedly demand prospective relief. But it
nevertheless demanded every plaintiff to "show a likelihood
that he . . . will be injured in the future" for such relief. Id. at 12.
Judge Cabranes' opinion fits word-for-word for this petition.
Petitioner agrees with respondents that 'former participants
like [Huang] have no stake in forward-looking relief' and
lacked Article III standing below. Petition 1 (quoting C.A.
Plaintiffs Br. 31). Thus, Huang "lack[s] the kind of injury
necessary to sustain a case or controversy, and necessary to
establish standing, under Article III." Berni, slip op., at 12.

•

A class may be certified if any "final injunctive relief or corresponding
declaratory relief is appropriate respecting the class as a whole". Fed. R. Civ.
Proc. 23(b)(2) (emphasis added). But petitioner lacked Article III standing
for prospective relief, contra Pet. App. 2a, and money judgments alone
cannot cause "inconsistency" under Rule 23(b)(1)(A). Petition 1, 5.
(1)

2
Purported "prospective relief" in this case caused class
certification under Fed. R. Civ. Proc. 23(b)(1)(A), denying
Huang's constitutional right to opt out. See Petition 1-2, 16-17.
But Huang consistently asserted that he has no risk of
prospective harm. C.A. Objector Br. 27-28; Petition 15-17; Supp.
Brief for Petitioner 2-3. With the great weight of new binding
precedents supporting petitioner's argument, e.g., Berni and
Thole. v. U.S. Bank, N.A., 140 S. Ct. 1615 (2020), ibid., the Court
should grant the petition and end an Article III problem' in
class-action settlements, as named parties' non-adverse class
certification exceeded limited Article III jurisdiction. It is a real
hazardous repetition now splitting nine circuits into four
corners; three circuits are already self-split. See Petition 12-14.
CONCLUSION
The Court should grant the Petition.
Respectfully Submitted,
/S/ SHIYANG HUANG

SHIYANG HUANG
Pro Per
2800 SW Engler Ct.
Topeka, KS 66614
(314) 669-1858
defectivesettlement@gmail.corn
JULY 2020

'E.g., Petition 12 n.5 (the Eleventh Circuit's en banc review on plaintiffs'
standing); Campbell v. Facebook, 951 F.3d 1106 (9th Cir. 2020); Frank v.
Gaos, 139 S. Ct. 1041 (2019). These cases all lacked standing analysis below.

